CERTIFICATE OF WORD COUNT
NO. 19-635
Donald J. Trump,
Petitioner,
v.
Cyrus R. Vance, Jr., in His Official Capacity as District Attorney of the County of New York, et al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BOSTON UNIVERSITY
SCHOOL OF LAW PROFESSORS AMICI IN SUPPORT OF RESPONDENT(S) contains 7267 words, including
the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
March 3, 2020

SCP Tracking: Wheaton-765 Commonwealth Avenue-Cover Cream

